                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS




The Office of Inspector General (OIG) received information that a PI' had mismanaged National
Science Foundation (NSF) grant funds. The complainant stated that the PI had paid their sbouse2a
salary months prior to the spouse working on the grant project. The complainant also claimed that
the PI mismanaged animal care funds, did not pay students the salaries the PI had promised them,
and had reported preliminary data on an award that was already shown to be wrong.

A review of the detail financial transactions reports and the payroll reports for the PI's awards failed
to disclose any indication that the PI's spouse had been paid with NSF grant funds.

An interview of a former co-PI on one of the SubjectPI's NSF awards failed to disclose any specific
information of mismanagement of federal grant funds.

The complainant subsequently stated that it was possible that the PI's mismanagment of grant funds
~ ~ ~ 8 f ~ e ~ a t e ~ ~ i w d a & ~ a Y h a ~ 8 8 ~ e

Accordingly, this case is closed.
